No. 20-701
IN THE

Supreme Court of the United States
JAMES CALVERT,
Petitioner,
v.
STATE OF TEXAS,
Respondent.
On Petition for a Writ of Certiorari to the
Texas Court of Criminal Appeals
WORD COUNT CERTIFICATE
I hereby certify, pursuant to Rule 33.1(h), that Respondent’s Brief
in Opposition contains 8,927 words, excluding parts of the brief exempted
by Rule 33.1(d). I am a member of the Bar of this Court.
s/ Jennifer Wren Morris
JENNIFER WREN MORRIS
Assistant Attorney General
Counsel of Record
P.O. Box 12548, Capitol Station
Austin, Texas 78711
(512) 936-1400
jennifer.wren@oag.texas.gov
Counsel for Respondent

